No.

STAPLES, INC., ET AL.,
Vv.
MARYLAND COMPTROLLER OF THE TREASURY

CERTIFICATE OF SERVICE

I, Craig B. Fields, hereby certify that I am a member of the Bar of this Court,
and that I have this 9th day of May, 2019, caused one copy of the Application For
An Extension of Time Within Which To File A Petition For A Writ of Certiorari to
the Maryland Court of Appeals to be served on counsel by third-party carrier for
overnight delivery and also by electronic mail as follows:

Brian E. Frosh

Attorney General of Maryland
308 Goldstein Treasury Building
80 Calvert Street

Post Office Box 466

Annapolis, MD 21404-0466
oag@oag.state.md.us

and

Brian L. Oliner

Michael J. Salem

Schonette J. Walker

Assistant Attorney General

Office of the Maryland Attorney General
Louis L. Goldstein Treasury Building

80 Calvert Street, Room 303

Annapolis, MD 21404-0466

boliner@comp.state.md.us

+
Bid.
Dated: May 9, 2019 q

Craig B. Fields

   

1640411
